THE LAW OFFICE OF

J.D. LLOYD
LLC
ONE HIGHLAND PLACE
2151 HIGHLAND AVE., S
BIRMINGHAM, AL 35205
P.O. BOX 43945
BIRMINGHAM, AL 35243
OFFICE 2 0 5 . 5 3 8 . 3 3 4 0

October 14, 2019

WWW.AFTERTHETRIAL.COM
JDLLOYD@JDLLOYDLAW.COM

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Monroe County Comm. v. A.A. Nettles, Sr Properties Limited , et al., No. 190386
Dear Mr. Harris
I write to request an extension of time in which to file the respondents’ response
to petitioner’s request for a writ of certiorari. A response is due on November 12,
2019. We request an extension of thirty days to and including December 12, 2019.
Counsel for petitioner does not object to this extension request. Respondents
request this extension because the undersigned is currently expecting the birth of
his first child on October 22, 2019. Therefore, pursuant to Supreme Court Rules
15.3 and 30.4, Respondent respectfully requests an extension until December 12,
2019 to file its response.
Please let me know if you require any further information. Thank you very much
for your time and assistance.
Sincerely,
/s J.D. Lloyd
J.D. Lloyd
cc
Sarah Harrington
Counsel of record for petitioner

